Ofﬁce of the Inspector General
    Semiannual report to the congress
        April 1, 2004 Through September 30, 2004
the government printing ofﬁce
For more than a century, the mission of the Gov-
ernment Printing Ofﬁce (GPO) under the public
printing and documents statutes of Title 44, U.S.
Code, has been to fulﬁll the needs of the Feder-
al Government for information products and to
distribute those products to the public. As GPO
transforms into a 21st century digital information
processing facility, it remains dedicated to produc-
ing, procuring, and disseminating Government
                                                       the ofﬁce of inspector general
information products in a wide range of formats        The Ofﬁce of the Inspector General (OIG) was
including print, CD-ROM, and online. GPO’s elec-       created by the Government Printing Ofﬁce In-
tronic and traditional technologies enable it to fa-   spector General Act of 1988, Title II of Public
cilitate the re-engineering of information products    Law 100-504 (October 18, 1988).
to satisfy the Government’s changing information
requirements, and to preserve and protect public       OIG Mission
access to Government information.                      The mission of the OIG is to provide leadership
• GPO provides print and electronic informa-           and coordination, and to recommend policies to
   tion products and services to Congress and          prevent and detect fraud, waste, abuse and mis-
   Federal agencies. For Congress, GPO main-           management, as well as to promote economy,
   tains a capability to fully support the informa-    efﬁciency, and effectiveness in GPO’s program
   tion product needs of the legislative process.      and operations. The OIG offers an independent
• GPO disseminates Government information              and objective means of keeping the Public Print-
  to the public in print and electronic formats        er and the Congress fully informed about prob-
  and to Federal depository libraries nation-          lems and deﬁciencies relating to the administra-
  wide where information may be used by the            tion and operations of the GPO. To meet these
  public free of charge                                responsibilities, the OIG conducts audits, evalu-
• GPO is advancing dissemination of Govern-            ations, investigations, and inspections. The OIG
  ment information in electronic formats. GPO          is dedicated to assisting the GPO improve its
  Access is one of the leading Federal sites on        efﬁciency and effectiveness as the GPO trans-
  the Internet. More than 250,000 Federal Gov-         forms into a 21st century digital information
  ernment document titles from more than 70            processing facility.
  Federal databases from all branches of the
  Government are available to the public at
  www.access.gpo.gov.
• GPO programs are designed to reduce the
  need for duplicative production facilities,
  achieve signiﬁcant taxpayer savings through
  a centralized production and procurement
  system, and enhance public access to Govern-
  ment information.
table of contents
LETTER FROM THE INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


GENERAL SUMMARY OF DOLLAR FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


EXECUTIVE SUMMARY
      Highlights of the Semiannual Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
      Management Initiatives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


OFFICE OF AUDITS
      A. Summary of Audit Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
      B. Audit Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
      C. Work-In-Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
      D. Advice and Assistance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
      E. Status of Open Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
         Statistical Table - Audit Reports with Questioned and Unsupported Costs . . . . . . . . . 20
         Statistical Table - Audit Reports with Recommendations . . . . . . . . . . . . . . . . . . . . . . . 21
         Statistical Table - List of Audit Reports Issued During Reporting Period . . . . . . . . . . 22


OFFICE OF INVESTIGATIONS
      A. Summary of Investigative Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
      B. Investigative Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
      C. Types of Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
      D. Status of Action on Referrals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
      E. Investigative Case Dispositions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
      F. Work-In-Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
         Statistical Table - Summary of Investigative Case Workload . . . . . . . . . . . . . . . . . . . . 28
         Statistical Table - Ofﬁce of Investigations Productivity Summary . . . . . . . . . . . . . . . . 28


OFFICE OF ADMINISTRATION AND INSPECTIONS
      A. Summary of Inspections Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
      B. Inspection Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
      C. Work-In-Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

ORGANIZATION CHART . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
from the inspector general

                                                     In addition, an increasing number of govern-
                                                     ment documents are created and managed elec-
                                                     tronically, allowing the public to obtain govern-
                                                     ment information from Web sites, rather than
                                                     purchasing paper copies. The result has been
                                                     a signiﬁcant decline in GPO printing volumes,
                                                     document sales, and revenues. These changes

I    am pleased to provide this Semiannual Re-
port to Congress for the period April 1, 2004
                                                     are creating challenges for GPO’s long-standing
                                                     system for centralized printing and dissemina-
                                                     tion and its interactions with customer agencies.
through September 30, 2004. Having joined GPO        In light of these challenges, GAO offered several
as its Inspector General on October, 4, 2004, I am   suggestions for GPO to consider, including the
excited to be a part of the ongoing efforts by the   following:
OIG to assist the Public Printer and his executive   • Develop a business plan focused on informa-
management team in continuing to pursue an ag-          tion dissemination as its primary goal, rather
gressive transformation of the agency.                  than printing.
      This report highlights signiﬁcant accom-       • Collect data to demonstrate that the services
plishments achieved during the reporting period         it provides—printing and publishing as well
and outlines some of the issues on which our of-        as information dissemination to the public
ﬁce will focus during the next six months. By all       through its library system and Web site—add
accounts, the transformation of GPO into a 21st         value to its customers.
century digital information processing entity will   • Establish partnerships with other agencies that
enhance GPO’s ability to meet the needs of each         disseminate information and enhance its cur-
of the three branches of the federal government         rent partnerships.
for all types of information products. As the OIG    • Ensure that its internal operations—including
focuses on key transformation issues, we will be        technology, management information systems,
better positioned to support GPO’s goals in this        and training—are adequate for efﬁcient and
effort, while helping GPO prepare for necessary         effective management of core business func-
budget and operational decisions related to pro-        tions and for service to its customers.
grams and services, and ensure that GPO’s funds            The Public Printer recognizes the challenges
and resources are utilized most effectively.         identiﬁed by GAO and has already incorporated
      Earlier this year, the Government Account-     many of GAO’s recommendations into the blue-
ability Ofﬁce (GAO) issued a report to Congress      print for GPO’s ongoing transformation efforts.
concerning GPO’s ongoing transformation ef-          The OIG remains dedicated to working with the
forts. The GAO recognized that printing and in-      Public Printer to help the GPO improve its ef-
formation dissemination by the federal govern-       ﬁciency and effectiveness as the GPO continues
ment are undergoing signiﬁcant change due to         to realize its transformation goals.
technological innovation and advancements in
electronic document creation. Federal agencies
have begun to publish documents directly to
the Web, as well as print and disseminate infor-
mation directly, without utilizing GPO services.




                                                                                                     1
     Included among the areas to which the OIG        • Information Technology Vulnerabilities. Sev-
will devote considerable attention in the months         eral systemic vulnerabilities in GPO’s IT secu-
ahead are:                                               rity systems were identiﬁed during a recent
• Contracting Processes. Internal controls over          annual testing. IT issues have been a long-
  GPO’s contracting processes and systems need           standing “reportable condition” in GPO’s an-
  improvement to help reduce the potential for           nual ﬁnancial audit reports. The OIG is work-
  waste, fraud, abuse and mismanagement. The             ing in partnership with the Ofﬁce of Informa-
  OIG will continue to work with GPO manage-             tion Technology and Systems to address these
  ment to ensure that adequate internal controls         issues. Moreover, planned IT upgrades are a
  are in place. In fact, during this reporting pe-       critical part of GPO’s 21st century transforma-
  riod, the Ofﬁce of Audits analyzed and recom-          tion, and will require monitoring and collabo-
  mended improvements in the controls over the           ration to ensure that these developments are
  Information Dissemination Sales Order Pro-             not future vulnerabilities for the GPO.
  gram, the procurement process of the Denver               The complexity and diversity of the OIG uni-
  Regional Printing and Procurement Ofﬁce, the        verse will continue to increase as the Public Print-
  Printing Procurement Department’s contract          er leads GPO through this period of unprecedent-
  modiﬁcations, and the processing of customer        ed change. In response, the OIG must adapt, not
  agencies’ credit card charges.                      only to meet current and evolving obligations,
     Additionally, the Ofﬁce of Investigations made   but also to serve as a positive change agent to
  signiﬁcant strides in developing cases and pre-     help facilitate this transformation process in a
  senting the results to U.S. Attorneys’ Ofﬁces       manner that ensures that the public is protected
  (USAOs) across the United States. For exam-         from waste, fraud, abuse, and mismanagement.
  ple, one investigation into allegations of false    Moreover, due to limited resources in these tight
  claims and false statements was accepted for        ﬁscal times, the OIG must be vigilant in priori-
  civil prosecution. In that case, the total amount   tizing its audits, investigations, and inspections
  of contracts under question is $244,000. A          to provide the greatest value to GPO’s mission. I
  second investigation into allegations of false      look forward to meeting these challenges.
  claims, false statements, and product substitu-
  tion is being handled by another USAO for civil
  prosecution. The value of all contracts under       GREGORY A. BROWER
  question in this investigation amounted to          Inspector General
                                                      U.S. Government Printing Ofﬁce
  $5 million dollars. Settlement negotiations
                                                      202-512-0039
  are currently underway between the contrac-
  tor and the USAO. In addition to USAO refer-
  rals, investigative results have been forwarded
  to GPO management for administrative actions
  to recover funds fraudulently obtained through
  GPO contracts.




2
GPO OFFICE OF INSPECTOR GENERAL SUMMARY OF DOLLAR FINDINGS
Reporting Period April 1, 2004 through September 30, 2004


                      Questioned/    Funds Put       Amounts     Potential    Funds At   Total OIG
                      Unsupported   to Better Use   Recovered   Agency Cost    Issue     Findings
                         Costs                                    Saving



 Ofﬁce of Audits        $150,296      $16,000                                                $166,296



 Ofﬁce of
                         $2.31M                      $20,683       $98K                      $2.428M
 Investigations




                                                                                         3
executive summary

                                                       is questioning costs of approximately $2.3 mil-
                                                       lion dollars. One of the main efforts, resulting in
                                                       cost savings of $69,000, has been in the area of
                                                       the Ofﬁce of Workers’ Compensation Beneﬁts.
                                                            The Ofﬁce of Administration and Inspec-
                                                       tions issued two sensitive reports concern-
                                                       ing the blank U.S. Passports produced by the
HIGHLIGHTS OF THE SEMIANNUAL                           GPO. The ﬁrst report examined cost recovery
REPORT                                                 issues related to blank passport production and
                                                       made four recommendations to GPO manage-


D       uring this reporting period, the OIG con-
tinued to advance a cooperative relationship with
                                                       ment. The second report examined the security
                                                       of transporting blank passports to Department
                                                       of State locations and made four recommenda-
GPO management in developing sound business            tions to GPO management. Additionally, the Of-
practices and supporting GPO managers and the          ﬁce of Administration and Inspections issued
Public Printer’s return-on-investment philosophy.      two reports concerning the implementation of
The OIG continues to work with other OIGs by           the Public Key Infrastructure at GPO, which in-
helping spearhead the initial peer reviews of Of-      cluded 82 comments that identiﬁed critical ﬂaws
ﬁces of Investigations.                                that required attention to ensure the security and
      The Ofﬁce of Audits issued ﬁve audit re-         integrity of the implementation process.
ports and one contract claim report to GPO of-
ﬁcials during the six-month reporting period end-
ing September 30, 2004. These reports made 30
recommendations for improvements, including
cost efﬁciencies that represent $16,000 in poten-
tial savings for GPO. The contract claim report
questioned $150,296. The Ofﬁce of Audits also
issued two Evaluation Reports to Congress. Fur-
ther, the Ofﬁce of Audits has one review that is in
a work-in-progress status.
      The Ofﬁce of Investigations opened 11
investigative cases in response to 26 new com-
plaints, and closed or referred 18 matters. A previ-
ous investigation into allegations of false claims
involving $5 million dollars in contracts over
the past three years was referred to by a U.S.
Attorney’s Ofﬁce for civil prosecution and ne-
gotiations for settlement are underway. Overall,
the Ofﬁce of Investigations has recovered in ex-
cess of $20,000 through investigative efforts, has
helped realize GPO cost savings of $98,000, and




                                                                                                        5
MANAGEMENT INITIATIVES                                     On October 4, 2004, the Public Printer ap-
                                                    pointed Gregory A. Brower to serve as the Inspec-
Annual Internal Control Report                      tor General of GPO. Mr. Brower comes to the
GPO Instruction 825.18A prescribes the poli-        GPO from the U.S. Department of Justice where
cies and standards and assigns responsibilities     he served as Legislative Counsel in the Executive
for conducting vulnerability assessments and        Ofﬁce for U.S. Attorneys. An attorney, he has sig-
internal control reviews of programs and activi-    niﬁcant experience in the civil, criminal, admin-
ties of the GPO. Pursuant to this directive, GPO    istrative, and legislative arenas. Mr. Brower is a
shall maintain effective systems of accounting      graduate of the University of California, Berke-
and management control. GPO’s managers are          ley, and The George Washington University’s law
responsible for continuously monitoring and         school, and is a former naval ofﬁcer.
improving the effectiveness of management con-             Tracie Briggs, auditor for the Ofﬁce of Au-
trols associated with their programs, functions,    dits, accepted a promotion and transferred to
and activities through the performance of vulner-   the Ofﬁce of the Comptroller.
ability assessments and internal control reviews.          After completing internships at the GPO, re-
The Inspector General uses management’s as-         cent graduates, Nathaniel Brown and Korey Mor-
sessments and reviews to assist in the formula-     ris, joined the OIG staff. Mr. Brown, a graduate of
tion of the appropriate tests and detailed scope    West Virginia University Institute of Technology,
of audit work.                                      will work with the Ofﬁce of Investigations. Mr.
      The OIG completed a draft compilation         Morris graduated from Florida Agricultural and
of management’s internal control submissions        Mechanical University and will work with the Of-
pursuant to GPO Instruction 825.18A during          ﬁce of Administration and Inspections.
this reporting period. The ﬁnal compilation will           Jackie Goff, Deputy Inspector General and
be submitted to support the Public Printer’s let-   Counsel, and Glenn Griser, Assistant Inspector
ter to the ﬁnancial statement auditors as to the    General for Audits, both retired at the end of the
adequacy of GPO’s internal controls. To meet        2004 ﬁscal year. Ms. Goff will remain as a con-
GPO’s schedule for the timely issuance of its an-   sultant for several months to help Mr. Brower
nual audited ﬁnancial statements and the relat-     transition into his role as Inspector General.
ed auditor’s report, the OIG’s report on internal
controls will be issued within the ﬁrst two weeks
of the new ﬁscal year.

Personnel Matters
There were several personnel developments
during this reporting period. Marc Nichols re-
signed as Inspector General on August 2, 2004.
Upon Mr. Nichols’ resignation, Jackie Goff was
appointed as Acting Inspector General and re-
mained in the position through the end of this
semiannual reporting period.




                                                                                                     7
Ofﬁce of audits

                                                     ﬁcation costs for jobs that were originally charged
                                                     to customer agencies’ credit cards. This Flash Re-
                                                     port notiﬁed GPO management of a problem that
                                                     required immediate attention.

                                                     Results In Brief

T    he Ofﬁce of Audits (OA), as required by the
Inspector General Act Amendments of 1988, con-
                                                     Regarding this subject, the OIG review disclosed
                                                     the following:
                                                     • GPO’s Ofﬁce of the Comptroller has no instruc-
ducts independent and objective performance            tions for charging modiﬁcation costs to cus-
audits, ﬁnancial audits, and special reviews re-       tomer agencies where the original costs were
lating to GPO. All OIG audits are performed in         charged to the customer agencies’ credit cards.
accordance with applicable Generally Accepted          Consequently, GPO is losing funds because
Government Auditing Standards promulgated              most, and maybe all, such modiﬁcation costs
by the Comptroller General of the United States.       are not being recovered from the customers.
When requested, the OA provides account-             • The OIG identiﬁed three speciﬁc examples of
ing and auditing assistance to the OIG Special         modiﬁcations to jobs charged to credit cards
Agents for both civil and criminal investigations.     that, as of May 28, 2004, had not been pro-
The OA also refers irregularities and other suspi-     cessed by the Ofﬁce of the Comptroller.
cious acts detected during audits to the Ofﬁce of    • Field ofﬁce staffs were not being notiﬁed re-
Investigations for investigative consideration.        garding the status of these modiﬁcation costs
                                                       or credits.
                                                          To correct these problems, the OIG recom-
A. SUMMARY OF AUDIT ACTIVITY                         mends that the GPO Chief Financial Ofﬁcer:
The OA issued ﬁve audit reports and one con-         • Establish and implement written procedures
tract claim report to GPO ofﬁcials during the          for the charging of modiﬁcations to customer
six-month reporting period ending September            agencies’ credit cards.
30, 2004. These reports made 30 recommenda-          • Immediately process the three outstanding
tions for improvements, including cost efﬁcien-        modiﬁcations from the Los Angeles Regional
cies that represent $16,000 in potential savings       Printing Procurement Ofﬁce (RPPO) that are
for GPO. The contract claim report questioned          provided in the Flash Report.
$150,296 requested by a contractor for work          • Establish and implement procedures for noti-
performed. The OA also issued two Evaluation           fying appropriate GPO ﬁeld staffs when modi-
Reports to Congress. Further, the OA has one           ﬁcations have been processed.
review that is in a work-in-progress status.         • Identify and process all other modiﬁcations to
                                                       credit card jobs from ﬁeld ofﬁces and the Cen-
B. AUDIT ACCOMPLISHMENTS                               tral Ofﬁce.
Audit Report
Flash Report on Credit Card Charges to Cus-
tomers for Modiﬁcations-Los Angeles RPPO
(Report 04-03, issued June 18, 2004)
     This OIG Flash Report provided the results of
a review of charges to customer agencies for modi-



                                                                                                      9
Amended Flash Report on Firearms Qualiﬁca-                wastes and inefﬁciencies of GPO resources,
tions of Uniformed Police Ofﬁcers (Report 04-             mainly in unnecessary postage costs.
04a, issued June 18, 2004)                             • Erroneous mailings also resulted in delays
     This OIG Flash Report provided the results           in customers receiving (or having available)
of an expedited review of ﬁrearms qualiﬁcations           desired printed materials, potentially damag-
of the GPO’s uniformed police ofﬁcers.                    ing a GPO image that management is trying
                                                          to improve.
Results In Brief                                       • OIG estimated that the ﬁnancial costs associ-
This Flash Report served as notiﬁcation that OIG          ated with this problem averaged about $2,040
was undertaking a greater level of scrutiny re-           per year for eight years, or more than $16,000;
garding Uniformed Police Branch (UPB) compli-             moreover, the negative effect on customer sat-
ance with GPO’s ﬁrearms policy and other com-             isfaction for unnecessarily untimely deliveries
pliance-related matters. This report, which was           to GPO’s Main Bookstore (and elsewhere in
for internal use only, examined ﬁrearms qualiﬁ-           Central Ofﬁce) needed to be addressed.
cations of GPO police ofﬁcers and revealed sev-        • In June 2004, OIG informed Information Dis-
eral factors that affected the ﬁrearms qualiﬁca-          semination Department (IDD) management of
tion standards of GPO’s UPB. The Flash Report             this issue. Management took immediate steps
resulted in three recommendations which were              to correct the problem by instructing staff to
accepted and acted upon by management.                    identify address labels for Central Ofﬁce items,
                                                          and to send them to Laurel separately.
Flash Report on the Laurel Warehouse Erro-                   To ensure correction of these problems, OIG
neously Mailing Items to GPO Headquarters              recommended that the IDD Managing Director
(Report 04-06, issued September 30, 2004)              issue instructions to:
      This OIG Flash Report provided the results       • Appropriate Central Ofﬁce and Laurel person-
of issues identiﬁed during the course of a prior          nel to separate items for delivery to any GPO
audit of contractor mailings. It dealt with a review      Central Ofﬁce zip codes and to ensure all items
of items sent from GPO’s Laurel (MD) Warehouse            are placed on GPO trucks.
to Central Ofﬁce buildings in Washington, D.C.         • Appropriate data entry personnel in Library
This Flash Report notiﬁed GPO management of a             and Customer Relations Service to use the “kill
problem that required immediate attention.                frank” code (00001) on address labels instead of
                                                          actual zip codes to minimize the potential for
Results In Brief                                          future erroneous postal metering and mailing.
Regarding this subject, the OIG review disclosed
the following:                                         Report on the Uniformed Police Branch Com-
• Since at least 1996, printed materials have been     pliance with Policies and Procedures (Report
  mistakenly mailed via the U.S. Postal Service        04-07, issued September 30, 2004).
  from Laurel Warehouse to GPO Central Ofﬁce                This OIG Report provided the results of an
  buildings. These items should have been placed       audit of GPO’s Uniformed Police Branch (UPB)
  on GPO trucks that make daily trips from Lau-        compliance with applicable policies and proce-
  rel to GPO Central Ofﬁce. Errors resulted in         dures.




10
Results In Brief                                     • Analyze Printing procurement oversight/fraud
This report, which was for internal use only, cov-     prevention.
ered the UPB compliance with applicable laws              The OIG recommends that the Public Printer
and GPO regulations. The report covered sev-         and GPO management ofﬁcials:
eral areas of noncompliance by UPB and made          • Realign their ﬁeld structure and establish ﬁeld
11 recommendations. These recommendations              ofﬁces (GPO “Printing Centers”) where the
were accepted by management and are being              largest amount of Federal printing work is
acted upon.                                            obtained from customer agencies and pro-
                                                       duced by the private sector.
Report on Review of GPO’s Regional Ofﬁce Struc-      • Pursue alternatives to renting ofﬁce space.
ture (Report 04-08, issued September 30, 2004)       • Analyze the economic impact of rental terms
     This OIG Report provided the Public Printer       of potential ofﬁce closures.
with ten factors the OIG is recommending he          • Analyze customer relations impact from poten-
and GPO senior managers consider in making             tial ofﬁce closures.
near-term and long-term policy decisions regard-     • Analyze contractor relations impact from po-
ing GPO’s regional ofﬁce organization.                 tential ofﬁce closures.
                                                     • Analyze the 20 ﬁeld ofﬁces’ magnitude of rev-
Results In Brief                                       enues as well as the revenue trends.
GPO ofﬁcials are considering policy decisions be-    • Analyze the volume of ﬁeld ofﬁces’ orders pro-
fore the end of Calendar Year 2004 regarding the       cessed.
future of the Regional Printing Procurement Of-      • Allocate Central Ofﬁce’s cost allocations more
ﬁces and Satellite Procurement Ofﬁces. This re-        equitably.
port provides the Public Printer with ten factors    • Adjust GPO’s surcharge and other handling
the OIG recommends he and GPO senior manag-            charges periodically to cover costs.
ers consider in making near-term and long-term       • Analyze the efﬁciencies or potentially averted
policy decisions regarding GPO’s regional ofﬁce        fraud that is provided by ﬁeld staff conducting
organization:                                          contractor site visits.
• Streamline and realign ﬁeld structure.
• Identify ﬁeld ofﬁce rental costs.                  Audit Report
• Identify ﬁeld ofﬁce rental terminations.           One contract claim audit report was issued dur-
• Identify customers’ interactions with ﬁeld of-     ing this six-month period involving $150,296 in
  ﬁces.                                              unsupported and questioned costs. (Report Num-
• Identify contractors’ interactions with ﬁeld       ber 04-05, issued June 24, 2004)
  ofﬁces.
• Analyze ﬁeld ofﬁces’ revenues.                     Evaluation Reports
• Analyze ﬁeld ofﬁces’ annual orders.                Two Quarterly Reports to Congress on GPO’s
• Allocate Central Ofﬁce costs (overhead alloca-     Prompt Payments of DC Water Bills
  tions) more equitably.
• Adjust GPO’s surcharge periodically to offset
  all costs.




                                                                                                   11
     Pursuant to Public Law 106-54, the OA is-       D. ADVICE AND ASSISTANCE
sued two reports, dated April 15, 2004 and July      During this reporting period, the OA provided
15, 2004, analyzing the promptness of GPO’s pay-     substantial advice and assistance to GPO ofﬁ-
ment for water and sewer services.                   cials and other Federal audit organizations as
                                                     follows:

C. WORK-IN-PROGRESS
                                                     2004 Financial Statement Audit
The OA has undertaken the following review
                                                     The OIG provided support for the audit of
for which fieldwork is ongoing. The corre-
                                                     GPO’s 2004 ﬁnancial statements throughout
sponding report will be issued in the next re-
                                                     this reporting period. Under 44 U.S.C. 309,
porting period:
                                                     an annual ﬁnancial statement audit has been
                                                     required since Fiscal Year 1997. KPMG LLP
Review of Funds Electronically Taken Back by
                                                     has been retained to conduct this audit under
GPO’s Customer Agencies
                                                     a multi-year contract for which the OA is the
     The OIG is conducting a review of “charge-
                                                     Contracting Ofﬁcer’s Technical Representative.
backs” (funds electronically taken back) by cus-
                                                     In addition, the OA provides administrative sup-
tomer agencies of GPO via the Department of
                                                     port and coordination with GPO management
the Treasury’s Intra-governmental Payment and
                                                     for the KPMG auditors. This is the fourth an-
Collection (IPAC) system. Total net chargeback
                                                     nual audit to be performed under the KPMG
amounts increased over 100 percent from FY
                                                     contract. The option to renew this contract for
2003 to an amount of over $10 million (at the
                                                     FY 2005, if exercised, will be the last year un-
time of this review). To meet this objective, the
                                                     der this contract.
OIG will:
• Review and report on the escalation of total
                                                     Liaison with GPO Managers
  chargeback amounts in FY 2004.
                                                     The OA conducted liaison activities with GPO’s
• Focus on one customer agency with a mate-
                                                     Customer Services Department, Information
  rially signiﬁcant proportion of these charge-
                                                     Dissemination Department, and Plant Opera-
  backs, analyzing where, how, and why this
                                                     tions. The OIG conducts these liaison activities
  occurred.
                                                     in order to improve GPO’s programs and opera-
• Review and analyze the IPAC system’s acces-
                                                     tions, the OIG’s work products, and GPO/OIG
  sibility, limitations, and internal controls (in
                                                     communications.
  terms of written/enforced procedures) as re-
  lated to user customers.
                                                     Assistance to OI on Investigative Case
• Review and summarize the effect on GPO’s
                                                     The OA, at the request of the Assistant IG for
  current assets as a result of these increases in
                                                     Investigations (AIGI), conducted a review of
  chargebacks.
                                                     a contractor for the purpose of determining
     The OIG anticipates issuing this report dur-
                                                     the possibility of recovering settlement claims
ing the ﬁrst quarter of FY 2005.
                                                     against the company. Because of the limited ﬁ-
                                                     nancial data available, the OA only was able to
                                                     offer general statements about the value of the




12
company. The OA recommended that the AIGI           Management Comments
determine the value of the assets by having the     Under GPO’s reorganization, the Ofﬁce of the
company’s assets appraised.                         Chief Financial Ofﬁcer (CFO) was assigned re-
                                                    sponsibility for the GPO Travel Management Pro-
                                                    gram and, thus, for commenting on the above
E. STATUS OF OPEN RECOMMEN-
                                                    recommendations. On September 23, 2004, the
DATIONS                                             CFO responded that this proposed change on the
GPO management ofﬁcials have not implemented
                                                    use of credit cards (0105-01) is under consider-
all of the signiﬁcant recommendations contained
                                                    ation as part of his efforts to update GPO’s Travel
in nine audit reports issued during prior semian-
                                                    Regulations (0105-03). No date was given when
nual reporting periods. A few have been outstand-
                                                    he expects the updated publication to be issued.
ing for a couple of years, and management did not
provide an explanation for two open recommenda-
                                                    OIG Comments
tions. A synopsis of our audit ﬁndings and recom-
                                                    These recommendations remain open until the
mendations, along with management’s actions to
                                                    CFO completes and implements the above ac-
implement the outstanding recommendations are
                                                    tions.
listed below:
                                                    Report on Improving the Controls Over SuDocs
Report on Improving Controls Over GPO’s Travel
                                                    [now the Information Dissemination Depart-
Program (Report 01-05, issued June 12, 2001
                                                    ment, or IDD] Central Ofﬁce Sales Order Pro-
                                                    gram (Report 02-10, issued September 12, 2002)
Finding
Opportunities exist to improve controls by issu-
                                                    Finding
ing fewer and smaller travel advances, and by
                                                    The audit determined that opportunities exist to
updating published travel regulations.
                                                    improve the internal controls over the follow-up
                                                    activity of resolving bad debts, namely through
Recommendations
                                                    the development of internal controls within the
The Director of Administrative Support should:
                                                    IDD’s Order Division by: (a) updating the Di-
• Not authorize travel advances for employees
                                                    vision’s policy statement and authorized ofﬁce
  with Government credit cards (activated and
                                                    procedures and (b) implementing written pro-
  not activated) and require the use of credit
                                                    cedures in the areas of follow-up letters, foreign
  cards for all cash advances to these employees
                                                    checks, and collection practices of bad debts.
  (0105-01).
• Update GPO Publication 815.1B Travel Regu-
                                                    Recommendation
  lations dated July 1989 with current General
                                                    The Superintendent of Documents should en-
  Services Administration’s guidelines and GPO
                                                    sure that:
  Notices on travel advances for GPO employ-
                                                    • Detailed procedures are developed and imple-
  ees with Government credit cards (0105-03).
                                                      mented on the timing of the three follow-up let-
                                                      ters in the Order Division in order to improve
                                                      the chances of a successful collection from
                                                      customers with dishonored checks (0210-02).




                                                                                                    13
• Written procedures are developed and imple-            Finding
  mented for the processing of orders by the             The Denver Manager did not establish an inter-
  Receipts and Processing Branch personnel               nal control program in the Regional Printing
  when checks are drawn on foreign banks to              Procurement Ofﬁce (RPPO) through the perfor-
  ensure that the checks are encoded with the            mance of vulnerability assessments and internal
  routing symbol assigned to the United States           control reviews as prescribed by GPO Instruc-
  ﬁnancial institution by the American Bank-             tion 825.18A Internal Control Program.
  ers Association (0210-05).
• Written procedures are established and im-             Recommendations
  plemented to ensure that all collection prac-          The Manager of the Printing Procurement Depart-
  tices for bad debts from the Sales Program             ment (PPD) should ensure that the Manager of
  are exhausted before a memorandum is writ-             the Denver RPPO establishes an internal control
  ten from the Order Division to the Comptrol-           program through the performance of vulnerabil-
  ler requesting certain unpaid invoices be              ity assessments and internal control reviews as
  written off (0210-06).                                 prescribed by GPO Instruction 825.18A (0212-26).

Management Comments                                      Management Comments
As a result of GPO’s reorganization, the Superin-        As a result of reorganization, PPD is now a di-
tendent of Documents is now the Managing Direc-          vision of Customer Services. The Managing Di-
tor, IDD. During the previous reporting period, the      rector of Customer Services did not respond by
IDD stated that the three above recommendations          the end of the semiannual period regarding the
were transferred to GPO’s CFO. On September 23,          status of this recommendation.
2004, the CFO stated that the Ofﬁce of the Comp-
troller will establish: (1) a policy and detailed pro-   OIG Comments
cedures for the timing of the three follow-up let-       This recommendation remains open until
ters to debtors (0210-03); (2) a procedure for the       the Managing Director of Customer Services
processing of foreign checks (0210-05); and (3) a        completes and implements the internal con-
procedure for bad debt collection in regard to the       trol program.
Sales of Publications Program (0210-06).
                                                         Report on Improving the Controls Over the
OIG Comments                                             Processing of Customer Agencies’ Credit Card
These recommendations remain open until the              Charges for Printing Procurements with Rid-
CFO completes and implements the above ac-               ers (Report 03-02, issued March 31, 2003
tions.
                                                         Finding
Report on Improving the Controls Over the                The OIG found that PPD personnel from Central
Procurement Process of the Denver Regional               Ofﬁce and six RPPOs miscalculated the charges
Printing and Procurement Ofﬁce (Report 02-               on customer agencies’ credit cards in 30 per-
12, issued November 12, 2002)                            cent (18 of 61) of the procurements, which to-
                                                         taled $10,169.




14
Recommendation                                       Management Comments
The Manager of PPD and the Comptroller               On September 16, 2004, the Managing Director
should immediately ﬁnalize the draft GPO In-         of Customer Services stated that PPD’s Systems
struction 440.12 Processing Printing and Binding     Support Group is working on consolidating the
Credit Card Payments and distribute to affected      two databases in two phases. Phase I should be
personnel (0302-01).                                 completed by December 2004. On Phase II, de-
                                                     velopment for additional enhancements will be-
Management Comments                                  gin in Spring 2005.
On September 23, 2004, the CFO (to whom the
Comptroller reports under the reorganization)        OIG Comments
stated that he and the Managing Director, Cus-       This recommendation remains open until the
tomer Services (to whom PPD now reports), are        Managing Director of Customer Services com-
closer to ﬁnalizing the new business rules for the   pletes and implements the system enhancements.
credit card. Once ﬁnalized, the GPO Instruction
will be reissued.                                    Report on the Federal Depository Library Pro-
                                                     gram (FDLP) Inspection Program (Report 03-
OIG Comments                                         06, issued September 30, 2003)
This recommendation remains open until GPO
management ﬁnalizes and issues the GPO In-           Finding
struction.                                           The OIG identiﬁed the following conditions
                                                     needing improvement:
Report on Improving Controls Over Printing           • Library inspections were not precisely de-
Procurement Department’s Contract Modiﬁca-             ﬁned.
tions at Central Ofﬁce (Report 03-04, issued         • The applicable section of Title 44, Section
September 30, 2003)                                    1909, relating to library inspections, needed
                                                       revision.
Finding                                              • The library inspections process, which usually
Printing Specialists in PPD were entering con-         consisted of a self-study, a self-study evalua-
tract modiﬁcation data twice into PPD’s two au-        tion, an on-site inspection, and an inspection
tomated databases – a stand-alone personal com-        report, was very time-consuming and could
puter (PC) system and the Procurement Informa-         be made more efﬁcient.
tion Control System (PICS) databases. They were      • Time management of Library Programs Ser-
doing this because the two systems were not in-        vice (LPS) inspectors was not carefully docu-
terfaced, which is contrary to Standard 1 of GPO       mented and needed improved operating pro-
Instruction 825.18A Internal Control Program.          cedures.
                                                     • The automated system in LPS governing key
Recommendation                                         library data was antiquated and needed up-
The Managing Director of Customer Services             grading.
should implement an automatic interface be-
tween the PC database and PICS for entering fu-
ture contract modiﬁcations data (0304-02).




                                                                                                   15
Recommendation                                          ing inspection software, and improving in-
The audit report made 13 recommendations to             spection data entries, based on IDD’s decision
the Managing Director, IDD, for improvements            to terminate the inspection program in favor
to the FDLP inspection program.                         of consultants (0306-11), (0306-12), (0306-13).

Management Comments                                   OIG Comments
On September 14, 2004, the Deputy Managing            Nine of the 13 recommendations were effec-
Director, IDD, reported that:                         tively implemented by the wholesale change
• The Managing Director hired a strategic plan-       in the inspection program affected by IDD. We
  ning ofﬁcer, who is currently engaged with          therefore consider them to be closed (Recom-
  examining Section 1909 of Title 44 and with         mendations 0306-02 through 0306-04, 0306-07
  identifying other options that may be effective     through 0306-09, and 0306-11 through 0306-13).
  (0306-01).                                          The other four recommendations remain open
• The ongoing reorganization has eliminated           until the Managing Director of IDD completes
  the need for inspections and related self-stud-     and implements relevant strategic planning and
  ies, so it has been requested that that recom-      system enhancements.
  mendation be closed (0306-02).
• IDD requested that recommendations (-03)            Report on Improving the Controls over the
  and (-04) be closed, as these relate to remind-     Administering of GPO Transit Beneﬁt (Metro-
  er notices and procedural revisions to the in-      chek) Program (Report 03-07, issued Septem-
  spection procedure (0306-03 and 0306-04).           ber 30, 2003)
• The new Ofﬁce of Education and Develop-
  ment will expand its training staff, including      Finding
  new library consultants (0306-05).                  The OIG found that management controls were
• IDD/GPO is working with U.S. National Com-          not always effective over (a) the eligibility of
  mission of Libraries and Information Science        GPO employees for participation in the Metro-
  to better utilize biennial survey data (0306-06).   chek program and (b) the distribution of month-
• IDD requested that recommendation (07),             ly farecards. Furthermore, the efﬁciency of the
  (08), and (09) be closed, as these relate to up-    program as established in GPO Notice 450 series
  dating inspection procedures, overtime pay          and GPO Instruction 825.18A Internal Control
  for inspectors, and monitoring non-inspection       Program could be improved. The OIG identiﬁed
  work by inspectors, based on IDD’s decision         a total of $92,270 of funds that could be put to
  to terminate the inspection program in favor        better use. The major ﬁndings were:
  of consultants (0306-07), (0306-08), (0306-09).     • Lack of effective communication between the
• PAMALA [the acronym for the old inspection             Metrochek Program Coordinator and the Park-
  software] features are being incorporated into         ing Manager to ensure that GPO employees
  a new integrated library system (0306-10).             did not participate in both programs. From
• IDD requested that the last three recommen-            September 2001 through August 2003, this
  dations (11), (12), and (13) be closed as these        lack of communication resulted in 17 employ-
  relate to improving self-study reports, enhanc-        ees receiving $12,696 in farecards while still




16
  participating in GPO’s parking program.               Commuter, and Virginia Railway Express
• Insufﬁcient questioning of employees’ commut-         commuters (0307-11).
  ing expenses on Metrochek applications before
  processing resulted in 89 employees, who re-        Management Comments
  sided in Washington D.C., inappropriately re-       On September 23, 2004, the CFO stated that:
  ceiving about $20,000 annually in farecards.        (1) he is exploring the possible merger of the
• Lack of controls in the monthly distribution        parking and MetroChek databases to ensure
  of farecards to Laurel employees resulted in a      that GPO employees are not participating in
  shortage after the July 2003 reconciliation.        both programs simultaneously (0307-02); (2) the
• Allowing employees time off to pick up their        Ofﬁce of the Comptroller has recovered some
  monthly farecards costs GPO approximately 900       funds and is pursuing collection from the other
  hours, or $25,542 annually, in lost productivity.   employees that were also participating in GPO’s
• GPO could achieve beneﬁts of: (a) $14,400 by        Parking Program (0307-03); (3) the Ofﬁce of the
  reducing future orders of monthly farecards;        Comptroller is in the process of having partici-
  and (b) $3,900 by reducing the ending inven-        pants submit an annual application (0307-08);
  tory of monthly farecards.                          and, (4) he will give proper consideration for a
                                                      pilot program in the future (0307-11).
Recommendation
The Comptroller should ensure that the Assis-         OIG Comments
tant Comptroller of the General Accounting            These recommendations remain open until the
Division or the Chief of the Cash Management          CFO implements the above actions and com-
Branch:                                               ments on the $92,270 in funds that could be put
• Periodically matches the databases of the           to better use.
  parking program and the Metrochek pro-
  gram to ensure that GPO employees are not           Report on GPO’s Corrective Action and Other
  participating in both programs simultane-           Employee Programs (Report 03-09, issued
  ously (0307-02).                                    September 30, 2003)
• Take appropriate action, if warranted, to re-
  cover the $12,696 from the 17 GPO employ-           Finding
  ees who received farecards while also partici-      The audit found that the controls over the fair
  pating in GPO’s parking program (0307-03).          and timely processing of pertinent documents
• Requires all employees participating in the         connected with GPO’s Corrective Action and oth-
  Metrochek program to submit an annual ap-           er employee programs – e.g., suspensions, remov-
  plication to ensure the transit information is      als, letters of warning, and internal investigations
  current (0307-08).                                  – were not in compliance with the timeframes
• Start a pilot program using the SmarTrip card       established in the Director’s Correspondence
  from Metro’s SmartBeneﬁts Program for GPO           Schedule and GPO Instruction 825.18A Internal
  employees using the MetroRail (subway) exclu-       Control Program. The OIG found the following
  sively, and expands the program gradually to        problems in the Employee Relations Branch:
  eventually include MetroBus, Maryland Rail




                                                                                                       17
• Specialists were not always timely in preparing   Report on the Government Printing Ofﬁce’s
  the ﬁnal letter to the Deciding Ofﬁcial on sus-   Contractor Mailings Programs (Report Num-
  pensions and removals within the Director’s       ber 04-01, issued March 31, 2004)
  Correspondence Schedule of 64 calendar days            Printing contracts often include a provision
  after receipt of GPO Form 2021. From October      that instructs GPO’s contractors to mail the ﬁnal
  1, 2001, through March 31, 2003, this problem     printed products. This provision either requires
  resulted in four employees remaining on the       the contractor to use GPO’s postal permit num-
  payroll and receiving an additional $43,181.      ber or delegates to the contractor authority to
• Specialists were not always timely in preparing   incur mailing charges. Under a delegation, the
  letters of warning within the Director’s Corre-   contractor is to submit to GPO documentation
  spondence Schedule of 25 calendar days.           regarding the mailing charges for reimburse-
• Specialists were not always timely or complete    ment. These contractor mailings programs affect
  in preparing memorandums to supervisors on        GPO’s IDD and Customer Services Department.
  recommending corrective actions after receiv-          The audit identiﬁed $100,000 in cost efﬁ-
  ing incident reports from GPO’s UPB.              ciencies and recommended that these funds be
• An internal control program had not been es-      put to better use. The audit made eight other
  tablished.                                        recommendations to improve controls over the
                                                    contractor mailings program. The signiﬁcant
Recommendations                                     recommendations were to:
This report contained 11 recommendations to         • Ensure that contractors submit required mail-
address the above ﬁndings and improve the in-         ing statements/documents to GPO.
ternal controls over the fair and timely process-   • Develop clear, concise, standard contract lan-
ing of documents associated with GPO’s correc-        guage that provides the requirements for con-
tive action and related programs.                     tractors regarding mailings of ﬁnal products.
                                                    • Develop sanctions for contractors (e.g., with-
Management Comments                                   holding reimbursement) that fail to comply
GPO’s Acting Chief Human Capital Ofﬁcer               with documentation or other requirements.
(CHCO) did not respond regarding the status of
these recommendations.                              Management Comments
                                                    On September 14, 2004, the Deputy Managing
OIG Comments                                        Director, IDD, reported that:
This recommendation remains open until GPO’s        • A meeting was held with management repre-
Acting CHCO completes and implements the in-          sentatives from Customer Services and both
ternal controls over the fair and timely process-     agreed to discuss changes to contract language
ing of documents associated with GPO’s correc-        (0401-01).
tive action and related programs.                   • IDD managers are identifying organizations
                                                      to be responsible for monitoring contractor-
                                                      mailed programs (0401-02).
                                                    • IDD personnel are working with Customer
                                                      Services and other departments to ensure that




18
   changes to contractor language for contractor
   mailings provide current/uniform directions
   (0401-03).
• IDD has been meeting with Chief Information
   Ofﬁcer (CIO) representatives to discuss impact/
   need for any changes to the automated systems
   presently used (0401-04).
• IDD is in the process of drafting standard oper-
   ating procedures (SOPs) governing contractor
   mailings (0401-05).
• IDD personnel will share proposed SOPs for
   comment by Customer Services and other rel-
   evant departments to ensure consistency with
   their related SOPs (0401-06).
• IDD is working with Customer Services to
   ensure that relevant changes to contract lan-
   guage will contain appropriate compliance
   language regarding mailing process require-
   ments (0401-07).
• IDD plans to include contractor-mailed pro-
   grams as part of its vulnerability assessments
   and internal control programs (0401-08).
• IDD is working to ensure that any quantiﬁable
   savings resulting from implementation of all
   these recommendations will be put to better
   use to accomplish IDD mission requirements
   (0401-09).
      On September 24, 2004 the Chief Acquisi-
tions Ofﬁcer (commenting on behalf of the Di-
rector, Customer Services) stated that all relevant
recommendations remain open at this time, but
provided no information about management ef-
forts to resolve any of them.

OIG Comments
These recommendations remain open until the
respective GPO entity completes their imple-
mentation of the above actions.




                                                      19
STATISTICAL TABLE — AUDIT REPORTS WITH QUESTIONED AND UNSUPPORTED COSTS

                                              Number of   Questioned   Unsupported    Total
Description
                                               Reports      Costs         Costs       Costs


Reports for which no management decision
has been made by the commencement of the          0           0             0           0
reporting period


Reports issued during the reporting period        1        $132,687      $17,609     $150,296


Subtotals                                         1        $132,687      $17,609     $150,296



Reports for which a management decision
was made during the reporting period

1. Dollar value of disallowed costs               0           $0           $0          $0
2. Dollar value of allowed costs                  0           $0           $0          $0



Reports for which no management decision
has been made by the end of the reporting         1        $132,687      $17,609     $150,296
period


Reports for which no management decision
                                                  0           0             0           0
has been made within six months of issuance




            20
STATISTICAL TABLE — AUDIT REPORTS WITH RECOMMENDATIONS
THAT FUNDS BE PUT TO BETTER USE

                                                                            Number of    Funds Put
 Description
                                                                             Reports    To Better Use


 Reports for which no management decision has been made by the com-
                                                                                1          $92,270
 mencement of the reporting period



 Reports issued during the reporting period                                     1         $16,000*


 Subtotals                                                                      2         $108,270


 Reports for which a management decision was made during the reporting
 period

 • Dollar value of recommendations that were agreed to by management            1         $16,000*
 • Dollar value of recommendations that were not agreed to by management        0            $0



 Reports for which no management decision has been made by the end of the
                                                                                1          $92,270
 reporting period



 Report for which no management decision has been made within six months
                                                                                1          $92,270
 of issuance




* Estimated at $2,040 per year for eight years.




                                                                                           21
STATISTICAL TABLE — LIST OF AUDIT REPORTS ISSUED DURING REPORTING PERIOD


 Contract Audit Reports                                 Questioned Costs                    Unsupported Costs



 Contract Review                To protect the Government’s negotiating position on claims that
 (Report Number                 have not been settled, information identifying the contractor
 04-05, issued 06/24/04)
                                and the associated questioned costs has not been disclosed.


 Totals                                                       $132,687                            $17,609




 Other Audit Reports                                                                      Funds Put to Better Use


 Flash Report on Credit Card Charges to Customers for Modiﬁcation-Los Angeles
 RPPO (Report Number 04-03, issued 06/18/04)


 Amended Flash Report on Firearms Qualiﬁcations of Uniformed Police Ofﬁcers
 (Report Number 04-04a, issued 06/18/04)


 Flash Report on the Laurel Warehouse Erroneously Mailing Items to GPO Head-
                                                                                                  $16,000
 quarters (Report Number 04-06, issued 09/30/04)


 Report on the Uniformed Police Branch Compliance with Policies and Proce-
 dures (Report Number 04-07, issued 09/30/04)


 Report on Review of GPO’s Regional Ofﬁce Structure (Report Number 04-08,
 issued 09/30/04)


 Total                                                                                            $16,000*




* Estimated at $2,040 per year for eight years.




            22
23
OIG Hotline:
1.800.743.7574
Office of investigations

                                                  the OI has witnessed an increase in informa-
                                                  tion and/or complaints received regarding al-
                                                  legations of fraudulent activities by GPO con-
                                                  tractors. In addition, the OI has undertaken a
                                                  proactive approach to identifying violators of



T
                                                  GPO contracts. The result of this new approach
                                                  showed a marked increase in the dollar value
     he OI conducts and coordinates inves-        of contracts under question, agency funds
tigations relating to employee misconduct         saved, and monies recovered.
and monetary or material losses occurring in           In conjunction with the Ofﬁce of Audits,
GPO programs and operations. These inves-         OI assisted in the evaluation of the operations
tigations may include contractors, program        of the GPO Uniformed Police Branch. The ﬁnd-
participants, GPO Management, and other           ings and recommended changes/improvements
employees. Special Agents in the OI are also      were reported to GPO management.
designated as Special Police Officers pursu-
ant to 44 U.S.C. § 317.
      The OI’s investigations with federal or
                                                  C. TYPES OF CASES
                                                  The OI’s investigative workload is categorized
non-federal investigative agencies may result
                                                  into four major areas based on the types of in-
in criminal prosecution, civil proceedings, or
                                                  vestigative cases:
imposition of administrative sanctions. Pros-
ecutions may result in court-imposed prison
terms, probation, fines, and/or restitution.
                                                  Ofﬁce of Workers’ Compensation Program
      The OI continues an aggressive effort
                                                  (OWCP)
                                                  The OI investigates GPO employees who have
to detect, prevent, and investigate the loss of
                                                  allegedly submitted false claims and made false
Government assets. In addition, the OI seeks
                                                  statements to facilitate receipt of workers’ com-
to recover monetary funds and investigative
                                                  pensation beneﬁts. The OI currently has four
costs payable directly to the GPO as part of
                                                  open investigations involving alleged OWCP
criminal and civil adjudication, or through
                                                  fraud violations.
administratively negotiated settlements.

                                                  Title 44, United States Code Violations
A. SUMMARY OF INVESTIGATIVE                       Federal agencies occasionally procure their print
ACTIVITY                                          needs from sources other than GPO. GPO be-
During this reporting period, the OI opened 11    lieves this is in contravention of Title 44 which
investigative cases in response to 26 new com-    prescribes that all federal agencies use GPO for
plaints or allegations, and closed or referred    those services.
18 matters.                                            The OIG will continue to coordinate with
                                                  GPO management and members of Congress
                                                  concerning issues related to perceived Title 44
B. INVESTIGATIVE ACCOMPLISH-                      violations.
MENTS
The OI remains active in liaison efforts with
GPO ofﬁces throughout the U.S. As a result,




                                                                                                25
Procurement Fraud                                     and product substitution is being handled by an-
The OI investigates allegations of statutory viola-   other USAO for civil prosecution. This matter is
tions involving GPO contractor service provid-        currently in the negotiation stages between the
ers defrauding the Government in connection           contractor and the USAO.
with GPO’s procurement of printing goods and
services. These violations include, but are not       Internal
limited to, false claims, false statements, wire      GPO Management:
and mail fraud, product substitution, and Small             Six matters were referred to GPO manage-
Disadvantaged Business Program violations.            ment for action during this reporting period. No
The OI currently has six open procurement             additional investigative effort was required. Ap-
fraud cases.                                          proximately $20,000 has been recovered by the
     A current reporting period fraud case was        agency through administrative actions and as a
referred to an U. S. Attorney’s Ofﬁce for pros-       result of OI referrals. Investigative ﬁndings were
ecution during this period. Civil prosecution ac-     also forwarded to appropriate agency ofﬁcials for
tion is pending.                                      consideration of possible suspension, debarment,
                                                      or other administrative actions against contrac-
Employee Misconduct                                   tors. In addition, approximately $98,000 in savings
The OI investigates allegations involving GPO em-     has been realized in the areas of Workers’ Com-
ployee misconduct. These allegations include, but     pensation and Printing Procurement programs.
are not limited to, misuse of Government com-
puters, theft, assaults, drug violations, gambling,
                                                      E. INVESTIGATIVE CASE DISPOSI-
kickbacks, and travel voucher fraud. The OI has
two active misconduct investigations.
                                                      TIONS
                                                      The following depicts the type of matters han-
                                                      dled by the OI during this reporting period:
D. STATUS OF ACTION ON REFER-                         • As a result of OI administrative investigations,
ALS                                                     two employees were given letters of warning
The OI’s investigative efforts can result in both       for their actions in receiving fraudulent Metro
external and internal referrals for action. A sum-      Check Beneﬁts. Two other employees, involved
mary of outstanding referrals by the OI follows:        in misconduct, retired in lieu of receiving ad-
                                                        verse personnel actions.
External                                              • The OI investigated and referred four separate
U.S. Attorney’s Ofﬁce (USAO) / State Attorney’s         contract violation matters to management for
Ofﬁce (SAO):                                            suspension/debarment actions.
     One current reporting period investiga-          • As a result of investigative efforts, approxi-
tion into allegations of false claims, and false        mately $20,000 has been recovered with an
statements was accepted for civil prosecution.          estimated $283,000 in future recoveries antic-
The total amount of contracts under question            ipated through agency USAO and/or agency
is $244,000.                                            administrative actions.
     One prior reporting period investigation         • In addition, investigative efforts resulted in
into allegations of false claims, false statements,     savings to the GPO of approximately $69,000




26
  in Worker’s Compensation Beneﬁts, and ap-           OI is questioning $2 million dollars (of $6.4
  proximately $29,000 in payments in a GPO            million dollars) in long-term payments, and
  Printing Procurement program.                       claims are being reviewed to verify the legiti-
• In collaboration with the Ofﬁce of Audits, the      macy of OWCP beneﬁt payments. In addition,
  OI assisted in evaluating the Uniformed Police      the OI is evaluating the prospect of contract-
  Branch (UPB) and found that the UPB had             ing investigations regarding program viola-
  not been following Standard Operating Proce-        tors.
  dures and agency policy in ﬁrearms qualiﬁca-      • The OI is questioning $165,000 in contracts
  tion of the ofﬁcers.                                involving two contractors allegedly involved in
• Based on an OI investigation, the GPO was           the submission of false claims/false statements,
  able to recover $1,200 from a GPO employee          illegal sub-contracting, and bid collusion.
  who had falsiﬁed information to obtain Metro
  Transit Beneﬁts.
• An investigation opened in a prior reporting
  period involving a contractor who over-billed
  GPO was completed. Efforts are underway
  to recover approximately $15,000 in possible
  over-billings.


F. WORK-IN-PROGRESS
The following OI matters are currently being
handled. Any dispositions and results of the in-
vestigations will be reported in future reports.
• OI conducted an investigation of a GPO con-
  tractor concerning alleged submission of
  claims/statements and product substitution.
  The investigation revealed evidence to sub-
  stantiate the allegations and was presented to
  and accepted by an USAO for civil prosecu-
  tion. The amount of questioned funds relating
  to these contracts is approximately $5 million
  dollars over the last three years.
• In the previous reporting period, the OI initi-
  ated a proactive approach to reducing work-
  ers’ compensation costs at GPO. The OI has
  collaborated with OWCP, resulting in a reduc-
  tion of Continuation of Pay (COP) costs in the
  second half of ﬁscal year 2004 in the amount
  of $69,000. The OI is also reviewing the long-
  term periodic rolls of OWCP recipients. The




                                                                                                   27
STATISTICAL TABLE - SUMMARY OF INVESTIGATIVE CASE WORKLOAD AS OF SEPTEMBER 30, 2004

  Workload Analysis:                                            Number

  Beginning Case Workload as of April 1, 2004                      19

  Cases Opened (from 26 new Complaints Received)                   11

  Cases Closed or Referred with No Further Action                 <18>

  Ending Case Workload as of September 30, 2004                    12




 STATISTICAL TABLE - OFFICE OF INVESTIGATIONS PRODUCTIVITY SUMMARY

  Arrests                                                          0
  Total Cases Presented to USAOs / SAOs                            9
     Criminal                                                      5
        Criminal Declinations                                      5
        Convictions                                                0
        Guilty Pleas                                               0
        Probation (days)                                           0
        Restitutions                                               0

     Civil                                                         4

        Civil Declinations                                         3
  Amounts Recovered Through Investigative Efforts                $20,683

  Total Agency Cost Savings Through Investigative Efforts        $98,000

  Total Costs Being Questioned                                   $2.31M

  Total Administrative Referrals                                   6

  Employee Suspensions                                             0

  Employee Terminations                                            0

  Employee Warned/Other Actions                                    4

  Other Law Enforcement Agency Referrals                           1




             28
29
ofﬁce of administration and inspections

                                                      Advice and Assistance
                                                      During the current reporting period the AI pro-
                                                      vided advice and assistance services as follows:
                                                      • AI provided advice and assistance to the Chief
                                                        Information Ofﬁcer (CIO) concerning the re-


T
                                                        organization of IT services, IT security, and
                                                        the OIG “trusted role” in the Public Key Infra-
      he Ofﬁce of Administration and Inspections
                                                        structure project at the GPO.
(AI) provides the Inspector General with an alter-
                                                      • AI monitored work of the CIO to mitigate risks
nate mechanism to traditional audit and inves-
                                                        in the GPO IT environment that were reported
tigative disciplines to assess GPO programs and
                                                        by the KPMG ﬁnancial statement audit and
activities. AI conducts short-term reviews and
                                                        the OIG inspection of GPO network vulner-
evaluations that generally focus on issues which
                                                        abilities. The CIO continues to make progress
are limited in scope. As with other ofﬁces within
                                                        in mitigating IT security risks and has reor-
the OIG, the AI assists the Inspector General in
                                                        ganized and expanded the IT security staff,
responding to Congressional and management
                                                        implemented a software development archi-
requests for assistance.
                                                        tecture which ensures that security concerns
                                                        are addressed prior to deployment, issued
A. SUMMARY OF INSPECTIONS                               an entity-wide security policy GPO Publica-
ACTIVITY                                                tion 825.33, and developed an initial plan and
During the current reporting period, AI issued          guidelines for conﬁguration management.
two reports concerning the blank U.S. Passports       • AI provided advice and assistance to the Man-
produced by the GPO. Additionally, AI issued            aging Director of Plant Operations concerning
two reports concerning the implementation of            the security/product integrity of the emerging
the Public Key Infrastructure (PKI) at the GPO.         biometric passport product.
A summary of AI accomplishments follows:              • AI served as liaison to KPMG for that portion of
                                                        the Financial Statement Audit pertaining to IT
Reports                                                 security testing and other assurance services.
AI issued the following reports during this report-
ing period:
• Comments on US Government Printing Ofﬁce
  Key Generation Ceremonies issued May 28,
  2004.
• Summary Report of the GPO Key Generation
  Ceremonies issued June 30, 2004.
• Passport Product Cost Recovery issued Sep-
  tember 22, 2004.
• Blank Passport Transportation Security issued
  September 28, 2004.




                                                                                                     31
B. INSPECTION ACCOMPLISHMENTS                        Purpose
                                                     To review the effectiveness and security of the
Passport Product Cost Recovery (Inspection
                                                     process for transporting blank U.S. passports
Report #AI0403, issued September 22, 2004)
                                                     from the GPO to the several U.S. Department of
                                                     State (DOS) passport locations, and recommend
Purpose
                                                     improvements to ensure that transportation of
This inspection was conducted to ensure that the
                                                     blank U.S. passports is secure.
cost recovery process for the production of blank
passport books accounts for all relevant factors,
                                                     Objectives
including the new biometric passport redesign.
                                                     • Describe the current method of transporting
                                                       blank passports.
Objectives
                                                     • Evaluate the effectiveness of the transportation
• Review the current passport cost process.
                                                       process.
• Evaluate the effectiveness of the current cost
                                                     • Evaluate the security of the transportation pro-
  recovery analysis.
                                                       cess.
• Recommend improvements to ensure revenue
                                                     • Recommend improvements to the transporta-
  covers cost.
                                                       tion of passports.

Findings/Recommendations
                                                     Findings/Recommendations
The OIG made recommendations to the Public
                                                     AI found that the delivery process does not meet
Printer in a sensitive report and recommended
                                                     the current needs of GPO for secure delivery of
that the cost accounting process for blank pass-
                                                     blank passport books to DOS passport locations.
ports should be conducted on an annual basis
                                                     Additionally, AI found that the current delivery
and include relevant variables such as Informa-
                                                     service package tracking system cannot be relied
tion Technology cost aspects of the passport in-
                                                     upon for accurate information as to the status of
ventory system and additional costs of security
                                                     a passport delivery. In addition, it was noted that
transport and product security services when
                                                     passport agencies in commercial buildings pres-
relevant procurements are ﬁnalized.
                                                     ent additional security concerns for blank pass-
                                                     port delivery. AI made recommendations to the
Management Comments
                                                     Public Printer in a sensitive report for improving
GPO management concurred with the report’s
                                                     the security of blank passport transportation.
ﬁndings and requested that the Managing Direc-
tor, Plant Operations, be included in the improve-
                                                     Management Comments
ment team.
                                                     GPO ofﬁcials generally agreed with the report’s
                                                     presentation and recommendations. It is agreed
Blank Passport Transportation Security
                                                     that, due to heightened security concerns, the
(Inspection Report #AI0404, issued Septem-
                                                     delivery system for blank passport books must
ber 28, 2004)
                                                     provide a higher level of security. GPO manage-
                                                     ment has commenced the process for securing
                                                     such services.




32
Public Key Infrastructure                              mented. The OIG, through its contractor SeNet
     AI issued two reports to the CIO as follows:      International, provided independent veriﬁcation
     The ﬁrst report detailed a review and com-        of that implementation.
mentary on the scripts for the GPO Key Genera-
tion Ceremonies. GPO has begun to establish a
                                                       C. WORK-IN-PROGRESS
Public Key Infrastructure (PKI) as part of its
Information Technology Security Program. PKI           Information Technology
uses cryptographic devices and keys to irrefut-        AI continues to provide advice and assistance to
ably establish an entity’s identity. In order to de-   the CIO concerning the reorganization of IT ser-
ploy a PKI, a central server, called the Principal     vices, IT security, and the process of migrating
Certiﬁcation Authority (PCA), needs to be created      GPO legacy business systems to contemporary
and given its own cryptographic identity. The          software and hardware platforms. AI will moni-
process of generating this identity is known as a      tor the CIO’s work in mitigating risks in the GPO
Root Key Generation Ceremony (RKGC). All of            IT environment.
the participants who have responsibility for safe-           AI is preparing to provide compliance au-
guarding the PCA were required to follow a strict,     dit services for the implementation of the GPO
well-documented script that outlined all the steps     PKI. This compliance audit is a requirement
for creating and implementing the PCA.                 of the FBCA as part of the application process.
     The OIG, through its contractor SeNet Inter-      In order to comply with membership require-
national, analyzed the scripts for the RKGC and        ments, competent external auditors must review
Subordinate Key Generation Ceremony and iden-          all aspects of the GPO PKI and attest that the
tiﬁed a number of critical ﬂaws in 82 comments         implemented policies and practices are in com-
that needed to be ﬁxed to ensure the security and      pliance with stated policies.
integrity of the Key Generation Ceremonies.                  AI will continue to provide advice and as-
     A second report was issued which attests          sistance for the 2004 Financial Statement Au-
that the Key Generation Ceremonies (KGC), that         dit activity. The AI assigns staff as liaison and
produced the signing keys for the Root Certiﬁ-         facilitator for IT security testing and other IT
cate Authority, were conducted in compliance           assurance work conducted by the external audi-
with the KGC scripts. The GPO is preparing to          tor KPMG to support their opinion on the GPO’s
cross certify with the Federal Bridge Certiﬁca-        ﬁnancial statements.
tion Authority (FBCA). In order to comply with
membership requirements, competent external            Product Security
auditors must review all aspects of the GPO PKI,       AI is preparing an inspection of the security/in-
including policies and practices, to ensure com-       tegrity of the passport manufacturing process.
pliance with stated policies.                          This inspection will provide recommendations
     The Certiﬁcate Authority (CA) is the cor-         to the Managing Director of Plant Operations
nerstone of trust in an organization’s PKI. The        concerning security and other integrity issues in
structure consists of a single Root CA and mul-        the manufacturing of the passport product for
tiple subordinate CAs created and conﬁgured            the DOS.
according to a preapproved detailed script. A
step-by-step KGC script was developed and imple-




                                                                                                     33
U.S. GOVERNMENT PRINTING OFFICE INSPECTOR GENERAL’S ORGANIZATIONAL CHART



                                                  Gregory A. Brower
                                                INSPECTOR GENERAL

            Tina Jones
         Executive Assistant

                                                      Vacant
                 Vacant
                                       DEPUTY INSPECTOR GENERAL & COUNSEL
              Administrative
                Assistant



                Vacant                              J. Anthony Ogden                             Ron Koch
     Assistant Inspector General                Assistant Inspector General              Assistant Inspector General
          Ofﬁce of Audits                      Ofﬁce of Administration &                  Ofﬁce of Investigations
                                             Inspections/Legislative Counsel



 Dave Schaub            Joseph Verch       Kevin Kaporch         Andrew Killgore                Jeff McAboy
  Supervisory            Supervisory         Deputy AIG         Assistant Inspector       Supervisory Special Agent
    Auditor                Auditor         Ofﬁce of Admin        General Ofﬁce of
                                            & Inspections       Policy and Planning



                                              Vacant            Cynthia Long-Hill
Allyson S. Brown      Patricia Mitchell                                               David Kennedy        Sonja Scott
                                            Mgmt/Program           Computer
     Auditor               Auditor                                                     Special Agent      Special Agent
                                              Analyst              Specialist




    Vacant                  Vacant        Peter La Tora     Korey Morris              Hugh Coughlin     Walter Martin IV
    Auditor                 Auditor       Mgmt/Program      Mgmt/Program               Special Agent     Special Agent
                                             Analyst          Analyst




               Rod Dahl                                                                Nate Brown         Lloyd Rawls
              Supervisory                                                             Mgmt/Program        Special Agent
                Auditor                                                                  Analyst




                                                                                                        Hazel Robinson
                                                                                                         Detailee Cust.
                                                                                                            Service


          34
            Ofﬁce of the Inspector General
    732 North Capitol St. • Washington, D.C. 20401
Phone: 202.512.0039 • Email: InspectorGeneral@gpo.gov
